    Peace Corps
    Office of Inspector General




                Map of Liberia




Final Country Program Evaluation Report:
          Peace Corps/Liberia
                IG-11-07-E

                                 September 2011
                                  EXECUTIVE SUMMARY

Nearly 3,900 Peace Corps Volunteers have served the people of Liberia since the program was
first launched in 1962. The program was closed in 1990 due to civil war but re-opened in
October 2008 when 12 Peace Corps Response Volunteers (PCRVs) arrived. Since that time, the
program has evolved into a regular Peace Corps program with Volunteers who serve the
traditional 27-month assignment. In July 2010, 14 two-year Volunteers began serving in the
secondary education sector. At the onset of this evaluation, 30 Volunteers were serving in
Liberia, including 16 PCRVs.

The program has been well received by the Liberian government since re-opening in 2008. The
secondary education project is aligned with host country needs, and the post has developed a
good working relationship with the Ministry of Education. While this report draws attention to
important programming concerns that need to be addressed, the post’s positive relationship with
the Liberian government should provide a solid foundation to improve the program.

Since 2008, the staff has been resolving issues caused by opening the post under an accelerated
schedule without sufficient financial and physical resources. The post also suffered from
confusion about the roles various headquarters offices would play in providing management
support and oversight. These challenges burdened the post’s staff and contributed to Volunteer
dissatisfaction and high early termination (ET) rates. Most of these concerns have been
addressed, although the post continues to operate without a full-time American staff member
overseeing the programming and training unit. To date, lessons learned from the post’s opening
have not been incorporated into agency processes and policies to help ensure that similar
mistakes are not repeated in the future.

The evaluation uncovered programming issues with the newly-opened two-year Volunteer
program because the agency did not fully prepare the post to transition from Peace Corps
Response (PCR) to a two-year program. Liberia is still rebuilding its educational system after
years of civil war, and two-year Volunteers faced significant challenges in effectively carrying
out their primary assignments. Most two-year Volunteers were unable to identify counterparts or
initiate secondary projects to supplement their primary assignments. Furthermore, the post has
not finalized the secondary education sector’s project plan.

Two-year Volunteers also reported that they were inadequately prepared for Liberia’s post-
conflict-related challenges. The post-conflict environment impacted Volunteers’ community
integration as well as their ability to be effective in their work assignment. The two-year
Volunteers expressed the need for strategies that could better enable them to manage the post-
conflict-related challenges they encounter.

Most PCRVs reported higher levels of satisfaction than two-year Volunteers regarding their
primary assignment and their ability to develop counterpart relationships and be productive.
However, it is unclear what the post is trying to achieve with its PCR positions in health and
education. Some staff questioned whether the short-term assignments were worth the time and


Final Program Evaluation Report: Peace Corps/Liberia                                              i
resources they required, especially given the number of challenges that need to be addressed with
the two-year program.

The evaluation also uncovered issues related to the post’s safety and security program that could
result in a poor response to emergencies. Some of the primary concerns are as follows:

        Forty percent of interviewed Volunteers could not correctly identify their consolidation
        points.
        Sixty-nine percent of Volunteers’ houses did not meet the post’s housing criteria.
        Volunteers were not accurately completing their site locator forms (SLFs).
        The post is not providing updated copies of the emergency action plan (EAP) to
        Volunteers, staff, and the embassy.
        Over 50 percent of interviewed Volunteers raised concerns about how the post is
        preparing for and responding to safety and security threats.

The post has made improvements since its opening thanks to the efforts of the local staff
members who are dedicated to the program and demonstrate an eagerness to learn. However, the
challenges uncovered during the evaluation, particularly those with the two-year program, raise
concerns about the agency’s growth plans for the post. Initially, the agency planned to double
the number of two-year Volunteers in Liberia, a commitment that was made before the post
assessed how well the program was working and corrected deficiencies. The agency has since
scaled back its growth plans but will need to continue to monitor post operations and observe
improvements in programming and safety and security before committing to future expansion.

Our report contains 33 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Liberia                                               ii
                                                          Table of Contents

EXECUTIVE SUMMARY .................................................................................................................... i

HOST COUNTRY BACKGROUND ..................................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND....................................................................................... 1

EVALUATION RESULTS ................................................................................................................... 3
          PROGRAMMING ................................................................................................................................................3

          MANAGEMENT CONTROLS ............................................................................................................................... 9

          VOLUNTEER SUPPORT .................................................................................................................................... 14

          TRAINING ....................................................................................................................................................... 21


OBJECTIVE, SCOPE AND METHODOLOGY ................................................................................... 28

INTERVIEWS CONDUCTED ............................................................................................................ 29

LIST OF RECOMMENDATIONS ...................................................................................................... 32

LIST OF ACRONYMS...................................................................................................................... 35

APPENDIX A: PC/LIBERIA SITE SELECTION AND HOUSING CRITERIA ...................................... 36

APPENDIX B: AGENCY’S RESPONSE ............................................................................................ 40

APPENDIX C: OIG COMMENTS ................................................................................................... 56

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ............................... 60
                           HOST COUNTRY BACKGROUND
Liberia is located on the West African coast and is bordered by Sierra Leone, Guinea, and Côte
D’Ivoire. The country was founded by free African Americans and freed slaves from the United
States, referred to as Americo-Liberians. The style of government and constitution was modeled
after that of the United States. It gained its independence in 1847 and is the oldest independent
republic in Africa.

Early in its history, the country experienced tensions between the Americo-Liberians and the
indigenous inhabitants. The Americo-Liberian elite monopolized political power and restricted
the voting rights of the indigenous population who were excluded from citizenship until 1904.
These tensions grew over time and eventually culminated in a civil war that began in December
1989. Fighting initially ended in 1996 but problems continued and a new rebellion erupted. The
conflict intensified in mid-2003 until Charles Taylor, who led a rebellion to assume the
presidency in 1989, left Liberia and took refuge in Nigeria. After two years of rule by a
transitional government, the country held a peaceful presidential election in the fall of 2005 and
elected Ellen Johnson-Sirleaf as the President of Liberia. Before achieving peace, the war
claimed the lives of more than 200,000 Liberians and displaced a million others into refugee
camps in neighboring countries.

Years of civil war and government mismanagement destroyed much of Liberia's economy. The
country’s education infrastructure was one of many areas that suffered during the civil war. The
average adult has had only 3.9 years of schooling. Liberia is listed as “low human development”
and ranks 162 out of 169 countries in the 2010 “United Nations Human Development Report.”1
The country is heavily reliant on foreign assistance for revenue.

Although the country is currently peaceful, situations exist that could threaten its stability. The
country is preparing for presidential elections that will take place in October 2011. Various
ethnic groups and opposition parties will be represented, and candidates may include former
warlords from the civil war era, increasing the potential for violence. There are also concerns
with regional security stemming from an election dispute in Côte D’Ivoire, a border country.
The situation resulted in violence and created a refugee situation as Ivoirians escaped to Liberia.



                   PEACE CORPS PROGRAM BACKGROUND
Over 3,800 Volunteers served in Liberia from the program’s opening in 1962 until the program
was closed in 1990 due to civil war. After years of unrest, the first democratically-elected
female head of state in Africa, Ellen Johnson-Sirleaf, was elected in 2005 and requested that
Peace Corps return to Liberia. The program was initially re-started in 2008 using the Peace
1
  “The Human Development Report” publishes an annual Human Development Index (HDI). The HDI provides a
composite measure of three basic dimensions of human development: health, education and income. Countries
receive a ranking that ranges from “very high human development” to “low human development” based on related
data.


Final Program Evaluation Report: Peace Corps/Liberia                                                           1
Corps Response program, and the first group of 12 PCRVs arrived in October of that year to
focus on education and teacher training.2 Since that time, the program has evolved into a regular
Peace Corps program with Volunteers who serve the traditional 27-month assignment. In July
2010, 14 two-year Volunteers began serving as English, math, and science teachers.3 A more
detailed explanation of the project is described below:

        Secondary Education
    Volunteers help implement the Ministry of Education’s goals of improving the quality of
    education, especially at the junior and senior high levels. The Volunteers teach English,
    science and mathematics in secondary schools; train, coach and mentor teachers; strengthen
    school/community partnerships; and facilitate extra-curricular activities with a focus on
    gender equity, girls enrollment in school, reproductive health, school gardens, and youth
    development.

In addition to the two-year program, the post continues to operate a Peace Corps Response
program. In January 2011, 16 new PCRVs arrived in Liberia. Currently, PCRVs are working in
two areas:

        Education
    The majority of PCRVs in Liberia work under the Ministry of Education in areas such as
    teacher training, strengthening Parent Teacher Associations, and library creation.

        Community Health
    PCRVs work under the Ministry of Health and Social Welfare to create in-service training
    programs for existing health care professionals and assist in the training of new health
    professionals.

In total, there were 30 Volunteers serving in Liberia at the onset of this evaluation. These
Volunteers were a mix of two-year and PCRVs.4 At the time of the evaluation, the post was
making preparations for the next Volunteer intake, which would double the number of
Volunteers serving in Liberia.




2
  Peace Corps Response provides opportunities for Returned Peace Corps Volunteers to undertake short-term
assignments in various program areas around the world.
3
  During the evaluation, one two-year Volunteer terminated service, bringing the total number of two-year
Volunteers to 13.
4
  Refer to the Interviews Conducted section of the report for select Volunteer demographics.


Final Program Evaluation Report: Peace Corps/Liberia                                                        2
                                  EVALUATION RESULTS
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

        The coordination between the Peace Corps and the host country in determining
        development priorities and Peace Corps program areas
        Whether post is meeting its project objectives
        Counterpart selection and quality of counterpart relationships with Volunteers
        Site development policies and practices

In reviewing the post’s grant programs, the Office of Inspector General (OIG) found no
significant areas of concern that would warrant action by the post. A programming staff member
has been assigned responsibility for managing the post’s Small Project Assistance grant program.
The post has had limited grant activity, although that might increase now that the post is
operating a two-year program.

The secondary education project is aligned with host country needs and supported by the
Liberian government.

Since the program re-opened in 2008, the post has welcomed nine inputs of PCRVs and one
group of two-year Volunteers. At the time of the evaluation, over 75 Volunteers had been placed
in Liberia, and more were expected to arrive in the summer of 2011. When launching a new
post, it is important to have support from the host country and to align programming with the
country’s development needs. The Peace Corps New Country Entry Guide states that building
relationships with the government and Volunteer sponsors is essential to creating an effective
post. The guide also emphasizes the need to work with the host country government to
determine their development priorities when identifying Volunteer projects. PC/Liberia has had
successes in both of these areas.

Improving education is one of the Liberian government’s top priorities and is part of its
“Education for All” action plan. The secondary education project’s concept paper incorporates
the Liberian government’s education goals into its own. At the time of the evaluation, 80 percent
of the two-year Volunteers and PCRVs serving in Liberia were assigned to education-related
projects. Although the country has many needs to help it recover from the long civil war, the
region and post staff expressed an interest in remaining focused on education, at least for the
time being.

The education program is well-received by the government, and the post has developed a
positive relationship with the Ministry of Education. To demonstrate the importance of the
Peace Corps program, the Minister of Education made a special effort to meet with the evaluator
during the evaluation. During this meeting he demonstrated detailed knowledge of the post’s


Final Program Evaluation Report: Peace Corps/Liberia                                           3
programming and stated that Volunteers are working in essential areas. Staff and Volunteers
stated that they have been well-received by the country, which has a long, positive history with
the Peace Corps. The Minister of Education demonstrated this favorable reception when he
stated, “We think Peace Corps is one of the best things to happen to Liberia.”

Although the rest of this evaluation report will describe some important programming concerns,
the post’s positive relationship with the Liberian government should provide a good foundation
to develop solutions and make program improvements.

Two-year Volunteers faced significant challenges in effectively carrying out their primary
assignments.

Peace Corps’s Characteristics and Strategies of a High Performing Post: Post Management
Resource Guide states that job-related problems “can compromise a Volunteer’s chances for a
satisfying and successful work experience.” One such problem is a struggling organization that
does not have enough resources. Liberia is still rebuilding its educational system after years of
civil war, and staff and Volunteers reported that many schools do not function well or have the
resources to help students.

While we recognize that it is early in their service, none of the seven two-year Volunteers
interviewed during the evaluation rated their ability to carry out their primary assignment
favorably (0 percent favorable response with a 1.8 average). Volunteers stated that they face
numerous challenges in their roles as secondary school teachers, such as:

        Student and teacher absenteeism
        Frequent school cancellations
        Classrooms with students of varying educational levels
        Cheating and corruption by students, teachers, and principals
        Limited number of teachers with which to develop counterpart relationships

A comprehensive pre-entry assessment of Liberia’s post-conflict economy and infrastructure
could have identified the challenges with the country’s educational system and been used by staff
to develop an education project with achievable goals. The assessment data could also have been
used to select sites where the challenges could be minimized and inform pre-and in-service
training program design so that Volunteers were better prepared to overcome obstacles.
Although the agency conducted an assessment before opening the PCR program, the post was
not re-assessed to determine the best way to utilize two-year Volunteers and adequately prepare
for their arrival. This is discussed in further detail in the Management Controls section of the
report.

As a result of the challenges they face, many two-year Volunteers were frustrated with their
assignments and did not think they were having an impact. Comments from Volunteers reflect
their frustrations and concerns:

        “I knew it wouldn't be a typical teaching experience but here it's not structured at all. I often go to
        school and either school is canceled or nothing is going on. I don't feel I've had an opportunity to
        do anything.”


Final Program Evaluation Report: Peace Corps/Liberia                                                              4
           “Education is a critical need but there's the problem of getting schools to meet and that's not in our
           control. I don't know how to improve.”

           “There have been so many times I try to do something and the school isn't ready to receive it.
           There aren't enough teachers there for me to teach normally. It isn't structured enough for me to
           complete the goals.”

As Volunteers progress throughout their service, they will likely gain skills to overcome some of
these challenges, which will give them a greater sense of accomplishment.5 But the number of
challenges faced by the two-year Volunteers indicates a broader problem with the Liberian
educational system that will likely not be fully addressed as Volunteers progress throughout their
service. Because of these systemic problems, two-year Volunteers questioned whether they
could be effective in secondary education placements. Volunteers recognized that education is a
critical need in Liberia but suggested that they might be more effective teaching students at
lower grade levels where there is a greater likelihood that students will be performing at or near
their grade level. Post staff was aware of Volunteers’ challenges and was planning to focus on
sites where there was a greater likelihood of success.

           We recommend:

            1. That the country director work with the post’s programming
               team, the Africa region, and the Office of Programming and
               Training Support, as appropriate, to develop a strategy and plan
               to improve Volunteer effectiveness in their primary assignments.


Most two-year Volunteers had not been able to identify a counterpart.

Peace Corps’s Characteristics and Strategies of a High Performing Post: Post
Management Resource Guide emphasizes the importance of counterpart relationships by
recommending that post staff work with partner agencies to identify counterparts and assess the
likelihood of creating successful counterpart relationships. The guidance also notes that not
having a productive counterpart relationship “can compromise a Volunteer’s chances for a
satisfying and successful work experience.”

At the time of the evaluation, most of the two-year Volunteers had a supervisor but only one of
the seven we interviewed had been able to identify a counterpart. The Volunteer Assignment
Descriptions (VADs) for the post do not provide a lot of information about counterpart
identification but refer to counterparts as other teachers. Not having counterparts impacts two-
year Volunteers’ ability to achieve the goal of supporting Liberian secondary school teachers
through collaboration, sharing resources and instructional materials, and encouraging teacher
observation and team teaching.

Staff acknowledged that selecting counterparts was a challenge for Volunteers. The post
identified supervisors for Volunteers but let them identify their own counterpart. Because

5
    Two-year Volunteers were in their seventh month of service at the time of the evaluation fieldwork.


Final Program Evaluation Report: Peace Corps/Liberia                                                                5
schools suffer from frequent teacher absenteeism, it is difficult for Volunteers to identify and
develop counterpart relationships with other teachers. Post staff stated that they were planning to
adjust site development by gathering information about the number of teachers at the school and
obtaining a list of possible Volunteer counterparts. This could increase the likelihood that
Volunteers will be able to identify a counterpart.

        We recommend:

         2. That the country director work with the post’s programming
            team to develop a strategy and plan to help Volunteers identify
            counterparts.


Two-year Volunteers have not initiated secondary activities at their sites.

Only one of seven two-year Volunteers interviewed as part of the evaluation reported having
enough work to do “most of the time” or “always.” In their primary assignment as secondary
education teachers, Volunteers often faced school closures, class cancellations, and poor student
attendance, leaving them with less classroom time than anticipated.

In addition to primary assignments, most Volunteers undertake secondary projects. Peace Corps’
Programming and Training Guidance - Management and Implementation provides the following
information and guidance related to these community service (“secondary”) activities:

        …community service supports [Volunteers’] integration in the community, their modeling of
        Volunteerism, and their desire to feel they are accomplishing something at times when their
        assigned project work is frustrating…Because Volunteers often look for ideas for community
        service activities, posts may provide resources and training for high-impact community service
        activity ideas.

Seven months into their service, two-year Volunteers had not yet been able to identify and
execute secondary projects that could supplement their primary assignment work schedules.
Volunteers reported the need for secondary projects due to the challenges they encountered in
their primary assignment but did not believe Peace Corps staff had provided enough guidance or
placed enough emphasis on secondary activities. Volunteer comments included:

        “I think the secondary projects will come into play later but I don't think they've been reinforced
        by Peace Corps.”

        “We've had no guidance on secondary activities. I don't think anyone has a secondary project and
        we've been here since August.”

        “I'd like to start [a secondary project] and fill up free time. There hasn't been a lot of emphasis
        placed on it by the program staff.”

Secondary activities were discussed briefly during pre-service training (PST) and the
“Reconnect” training that was held after three months of service. Programming staff stated that
secondary activities had not been emphasized because they felt that teaching would be a big
enough job. Staff planned to cover the topic in more detail during in-service training (IST);


Final Program Evaluation Report: Peace Corps/Liberia                                                          6
however, IST was replaced with a perma-garden training that taught Volunteers about gardening
and food security. The VADs issued to prospective Volunteers provided some suggestions for
secondary activities. However, the VADs did not emphasize the importance of initiating
secondary activities given the classroom challenges faced by Volunteers. Even though
secondary projects were included in trainings and the VADs, Volunteers could use more
guidance and reinforcement to help them create a successful, productive Volunteer experience.

        We recommend:

         3. That the country director work with the programming team to
            revise the Volunteer Assignment Descriptions to emphasize the
            importance of secondary activities given the challenges of
            working in the Liberian school system.

         4. That the training manager review pre- and in-service training
            programs to ensure that they adequately address and prepare
            Volunteers to identify and carry out secondary activities.


The post has not finalized its secondary education project plan.

Even though Volunteers in Liberia have been working in the areas of education and health since
the first PCRVs arrived in October 2008, the post had not finalized project plans for either of
these sectors. To prepare for the arrival of two-year Volunteers, the post drafted a concept paper
for the secondary education project but did not finalize the project plan. No project plan or
concept paper existed for the six health-related positions filled by PCRVs. Staff members from
PCR stated that PCRVs do not typically operate under a project plan. Instead, they have
individual job descriptions that communicate their work activities.

Peace Corps’s Characteristics and Strategies of a High Performing Post: Post
Management Resource Guide emphasizes the importance of a project plan because of the
benefits gained from systematically developing the project itself and summarizing what will be
carried out in the field. The agency does not have clear guidance about whether a post needs to
have a project plan in place before Volunteers begin their service.

The agency recommends that posts involve counterparts, Volunteers, and project partners in
project plan development so post staff delayed development of the project plan until those
relationships were developed. Staff intended to finalize the project plan in December 2010 but
was unable to do so because other priorities took precedence. The director of programming and
training (DPT), the only programming staff member with experience developing Peace Corps
project plans, was unable to finalize the plan because she was only assigned to the Liberia post
for 30 percent of her time. Post staff was planning to seek feedback from the Office of
Programming and Training Support (OPATS) on the draft concept paper so they could finalize
the project plan. To date, no target completion date has been set.




Final Program Evaluation Report: Peace Corps/Liberia                                               7
Without a finalized project plan, interviewed Volunteers were unclear on the goals of their
primary assignment. Only 17 percent (1 of 6) of interviewed two-year Volunteers rated their
knowledge of the project plan goals favorably, with a 1.8 average.6 The lack of a project plan
has also prevented the post from fully implementing the training design and evaluation (TDE)
process and the Volunteer Reporting Tool (VRT). These are essential in developing effective,
relevant Volunteer training and gathering performance data needed for the agency’s Performance
and Accountability Report (PAR). Refer to the Training section of this report for more
information.

          We recommend:

            5. That the country director and programming team obtain the
               necessary input from the office of programming and training
               support and finalize the secondary education project plan.


The purpose of the Peace Corps Response program is unclear.

PCRVs serve in a variety of assignments in PC/Liberia. Of the 17 PCRVs serving at the time of
the evaluation, six were community health Volunteers and the remaining 11 were serving in
education assignments.

According to PCR documentation, PCRVs across the world provide support in the areas of
HIV/AIDS; humanitarian assistance; natural disaster relief and reconstruction; disaster
preparedness and mitigation; and post-conflict relief and reconstruction. The agency does not
require PCR positions to be part of a sector’s project plan or be aligned with post-specific goals
and objectives.

The PCR position descriptions in Liberia do not state the purpose or goals of the assignments,
although one states that Peace Corps was commencing its “post-conflict reconstruction
assistance to Liberia” with PCRVs. Current post staff did not know the rationale behind the PCR
assignments and could not explain why PCRVs were serving in both health and education.
Without this knowledge and a clear link to goals and objectives, it is difficult to determine what
the agency is trying to achieve with the Liberia PCR positions. This is most notable for the
health positions. For instance, there are only a small number of health PCRVs and no two-year
health sector Volunteers who can build upon the health PCRVs’ work.

Without a clear understanding of the purpose of the PCR positions, some staff questioned
whether the post had adequately focused its programming and prioritized the use of staff
resources. Currently, Liberia PCRVs serve six-month assignments, which means staff are almost
constantly engaged in verifying housing and job assignments and orienting new PCRVs. Staff
stated that the PCR positions can be time-intensive, and they questioned whether the short-term
assignments were worth the time and resources they spent developing them, especially given the
number of challenges that need to be addressed with the two-year program. The post would

6
    One two-year Volunteer was unfamiliar with the project plan goals and declined to provide a rating.



Final Program Evaluation Report: Peace Corps/Liberia                                                      8
benefit from assessing the value and purpose of the PCR positions to ensure resources are being
used effectively and the post is appropriately leveraging the PCR program.

        We recommend:

         6. That country director and Peace Corps Response director review
            the post’s Peace Corps Response program and establish its
            purpose and intended goals.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including post staffing;
staff development; office work environment; collecting and reporting performance data; and the
post’s strategic planning and budgeting process.

In reviewing the post’s relationships with headquarters and the U.S. embassy in Liberia, OIG
found no significant areas of concern that would warrant action by the post. Post staff stated that
they are well-supported by Peace Corps headquarters. Post staff members also participate in
embassy meetings and communicate with embassy staff on a regular basis while still maintaining
the necessary independence of Peace Corps.

The agency did not adequately prepare the post to transition from PCR to a two-year
Volunteer program.

In The Peace Corps: A Comprehensive Agency Assessment, the assessment team recommended
that the agency “make Peace Corps Response an engine of innovation by piloting new programs
to expand the Peace Corps’ presence and technical depth and increase overseas service
opportunities for talented Americans.” Even before the assessment report was issued, the agency
had decided to use this model in Liberia. The program in Liberia was started with PCRVs and
then transitioned to a more traditional two-year program two years later.

Before opening the PCR program, a team conducted an assessment of Liberia in June 2007 to
provide the Director with information that could be used to “make an informed decision as to the
desirability and feasibility of establishing a [Peace Corps Response] program in Liberia.”7 The
initial assessment followed the agency’s new country entry guidance and covered key post
operations such as Volunteer medical support, safety and security, programming, Volunteer
recruitment, and administration.

Following the initial assessment in June 2007, there were no additional assessments undertaken
to determine whether the post could support a viable program for two-year Volunteers, although
feedback was gathered from PCRVs and incorporated into pre-departure preparation and
7
 At the time of the new country entry assessment, Peace Corps Response was called Crisis Corps, which is how it
was referenced in the assessment documentation.


Final Program Evaluation Report: Peace Corps/Liberia                                                              9
training. Although some of the assessment results might not have changed when the focus
shifted to the two-year program, others, particularly programming and recruiting, should have
been re-evaluated. In the initial programming assessment, the team reviewed capacity-building
Volunteer assignments designed for PCRVs, such as working directly with the Ministry of
Education and teacher training institutes. The team did not assess direct teaching assignments in
secondary schools, which is where two-year Volunteers have been placed. The Programming
section of this report discusses the challenges two-year Volunteers were facing in these
assignments. These challenges could likely have been identified and mitigated if the agency had
re-assessed the program before inviting two-year Volunteers.

The agency does not require a re-assessment when transitioning from a Response program to a
more traditional two-year program. This represents a lost opportunity for PCRVs to provide
valuable insight that could inform Volunteer work site development and training for two-year
Volunteers serving in the same country. Learning from the experiences of PCRVs will be
important as the agency implements the recommendations found in the comprehensive agency
assessment. The results of these pilot programs need to be fully assessed before committing to
two-year programs.

        We recommend:

         7. That the associate director for Global Operations and the
            director of Peace Corps Response develop a process to assess the
            results of Peace Corps Response pilot programs before launching
            a two-year Volunteer program.


Lessons learned from the post’s opening have not been incorporated into agency processes
and policies.

Headquarters staff from the Africa region and PCR agreed that the post’s opening was not ideal.
In particular, the post faced problems because of an accelerated re-opening timeline, unclear
roles and responsibilities for the Africa region and PCR, and limited resources for the post.

Staff reported that the post was opened earlier than planned. Although the region was making
preliminary plans to re-open the program in Liberia, the timeline was accelerated and Liberia
was given priority over other opening posts due to a commitment made by the White House.
This gave the agency less time to prepare for the arrival of staff and Volunteers and proactively
manage the challenges associated with operating in a post-conflict environment.

The post’s opening was also hindered by a lack of coordination between the region and PCR.
Because the country program was started with PCRVs, the region did not provide the same
oversight and resources that they provide to other posts. PCR was responsible for managing the
daily coordination, communication, and logistics, responsibilities that are usually handled by
regional staff. Staff from PCR stated that the office was not accustomed to managing these
activities and was not prepared for them.




Final Program Evaluation Report: Peace Corps/Liberia                                                10
The post also suffered from inadequate resources. Because the post only had PCRVs in the
beginning, the program was not provided the same financial and physical resources that other
posts receive. The post did not have a sufficient number of drivers and vehicles, did not have a
proper office space, and had a reduced number of staff members.

These challenges placed a burden on the post’s few staff members and likely contributed to
Volunteer dissatisfaction. In the post’s first two years of operations, the ET rate for the PCRVs
in Liberia was over 20 percent, which is significantly higher than the global average of
approximately 8-11 percent for two-year Volunteers during the same time period. Although
many factors influence a Volunteer’s satisfaction and productivity, it is likely that the accelerated
timeline and insufficient resources and coordination created problems for Volunteers that
resulted in their dissatisfaction.

We found that most, if not all, of the problems that resulted from the post’s difficult opening
have been addressed. The Africa region has assumed responsibility for general management and
oversight. The post now has its own office space, has acquired more vehicles, and has added
numerous staff members, including several programming and training staff and a Safety and
Security Coordinator (SSC). Moving forward, it is important for the agency to learn from and
document the ways the post’s opening could have been improved. This will help the agency
build institutional knowledge that benefits future post openings.

        We recommend:

         8. That the associate director for Global Operations work with the
            post, Africa region, and Peace Corps Response to document
            lessons learned from the post’s opening and incorporate them
            into existing new country entry processes and policies, as
            appropriate.


The lack of guidance from full-time, experienced staff has impacted programming and
training.

As a newly opened post, the programming and training unit was staffed by local hires who had
limited experience with Peace Corps systems and processes. The post did not have a full-time
United States Direct Hire (USDH) staff member to oversee the programming and training unit.
Instead, one DPT covered two posts, Liberia and Sierra Leone. The DPT was physically located
in Sierra Leone and estimated that 30 percent of her time was dedicated to the Liberia post.
These two programs had similar programming, although they were both start-up operations in
post-conflict countries, requiring more time and attention than an established post. To
compensate for the lack of a full-time DPT, previous assessments of the post conducted by
headquarters staff recommended that the country director (CD) have a strong programming and
training background; however, neither the previous nor current CD had this requisite
background. Without this base of experience, the post lacked someone who could provide the
daily mentoring and guidance needed by an inexperienced programming and training team.




Final Program Evaluation Report: Peace Corps/Liberia                                               11
Staff and Volunteers spoke very favorably about the DPT’s contribution to the post but noted
that her impact was limited because of the small amount of time she was able to devote to the
Liberia program. Staff stated that the DPT was beneficial because she understood Peace Corps’
approach to programming, which the local staff members recognized they had not fully learned.
Having an American staff member on the programming and training team also provided a
beneficial cultural perspective for both staff and Volunteers. Staff also stated that they were
unable to make decisions as quickly and easily when the DPT was not present. Comments from
staff reflect the reasons they believe they would benefit from a full-time DPT:

         “The programming and training issue is a make or break issue and it’s the biggest issue here. We
        have one program, secondary education, and it doesn’t seem to be going well....We’re a new post
        with an unproven programming and training team. We get Volunteer feedback that there are
        communication and comprehension challenges [with local staff]. We have a new country director
        and [director of management and operations], neither of whom have a programming background.”

        “Some Volunteers want to see decisions taken at a higher level so there’s a need for that role. Her
        30% time here has been helpful.…But we’re beginning to expand. We need a full-time [DPT] to
        help with some of the issues. And some things require a cultural approach that we’re not trained
        to handle.”

        “Sometimes we need immediate intervention. And email doesn’t always communicate that. She’s
        a great person to work with but we need a full time [DPT]. When it comes to our programming
        the [DPT] plays a pivotal role. Having a resident in Liberia would help the program a lot. There
        are technical issues we need to be decisive on but we can’t be because she’s not around.”

Many of the people we spoke with stated that assigning one staff member with responsibilities
for programming and training at two start-up posts was too much work for one person.
Important programming elements, such as completing the project plan, were not completed
because the post lacked experienced staff to provide oversight.

Due to the Peace Corps’ five-year rule term limitations, Liberia’s DPT was planning to leave the
agency by the fall of 2011, leaving an even bigger gap in the post’s programming and training
unit. Initially, regional staff stated that there were budget challenges associated with re-filling
the position and they were trying to determine whether the post needed a full-time DPT.
However, since the evaluation was concluded, the regional managers stated that they planned to
hire a full-time USDH to oversee the programming and training unit. This should provide much-
needed guidance and oversight to the local programming and training staff members.

        We recommend:

         9. That the regional director of the Africa region ensure the post
            hires an experienced, full-time United States Direct Hire
            employee to oversee the programming and training unit.


Disorganization impacted the efficiency and effectiveness of the office.

Staff members need to be able to effectively communicate with one another and access important
information to carry out their jobs and provide support to Volunteers. Peace Corps’s


Final Program Evaluation Report: Peace Corps/Liberia                                                          12
Characteristics and Strategies of a High Performing Post: Post Management Resource Guide
emphasizes the importance of having clear roles and responsibilities for staff and managing
documents “in a systematic, organized manner so they can be accessed when needed.”

We found that information at the post was not always well organized and transmitted clearly, and
staff members could not easily access requested documentation. Unclear roles and
responsibilities contributed to disorganization and confusion in the office, which impacted
Volunteer support and training. For example, at least two staff members were organizing
Embassy homestay approvals, and multiple staff members were communicating with Volunteers
regarding the status of passports and visas that were needed for upcoming travel. There was also
multiple staff members involved in whereabouts reporting. According to the out-of-site policy,
Volunteers could report overnight stays away from their community to three different staff
members; however, the post did not have clear guidelines to inform staff how to record the
information and communicate it to others.

The office’s disorganization also impacted the OIG evaluation. Staff was not always able to
complete tasks and gather requested documents during the evaluation because they did not know
where the information was stored or were unable to effectively hand off tasks from one person to
another. For example, as part of the evaluation, staff was required to submit standard
programming and safety and security documents to the evaluator. Staff was unable to complete
this over a period of three months. The documents were stored in multiple locations within the
office and some were only available electronically while others were in hard copy. Staff was
unable to locate the necessary documentation, and they provided contradictory information about
where documents were stored and who had access to the needed files.

This disorganization impacted the post’s ability to function efficiently and effectively and was
noted by staff and Volunteers. Volunteers reported an overall lack of organization during
training. Volunteers stated that sessions were not always well-coordinated, which made some
activities redundant because they were covered multiple times by different people. Volunteers
also faced difficulty getting their passports returned to them after the office processed their visas.
Volunteers reported that they received conflicting responses from staff members regarding the
status of the passports and when they would be available. Some Volunteers also reported
difficulty getting their Embassy homestay approval processed in a timely manner. They had to
follow up multiple times to determine the status of the request and remind staff to process it.

The post’s inability to execute tasks and hand off information raises concerns about the ability to
respond quickly and effectively in an emergency situation. The post would benefit from
clarifying roles and responsibilities and identifying primary points of contact for key office
processes. If needed, the post can also designate secondary points of contact to ensure there is
coverage when people are traveling; however, the post should document how information should
be handed off to ensure information flows effectively.




Final Program Evaluation Report: Peace Corps/Liberia                                                13
        We recommend:

         10. That the country director ensure that the staff creates a more
             stream-lined, coherent filing structure for programming and
             training and safety and security documents.

         11. That the country director clarify roles and responsibilities of post
             staff, correct instances of unclear ownership of office processes,
             and make staff accountable for performing their duties as
             prescribed.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), and the handling of crime incidents; and the adequacy of the Volunteer living
allowance.

In reviewing the adequacy and timeliness of Volunteers’ living and settling in allowances,
diversity support, the availability of communication methods between post staff and Volunteers,
the number and quality of site visits, and the Volunteer Advisory Committee (VAC), OIG found
no significant areas of concern that would warrant action by the post.

In general, most Volunteers were satisfied with the adequacy and timeliness of reimbursements
and their settling-in and living allowances, although Volunteers noted some possible areas for
improvement. Thirty-three percent of the interviewed Volunteers stated that the settling-in
allowance should have been received sooner so Volunteers could buy needed items in Monrovia.
Several Volunteers also stated that the settling-in allowance was less adequate for Volunteers
who moved into new, unfurnished houses or did not have a roommate to help with initial
expenses.

Overall, interviewed Volunteers did not raise significant concerns related to diversity, although
they confirmed that females and homosexual Volunteers face additional challenges. In
interviews, American staff members were more aware of these challenges than host country
nationals. The Peace Corps medical officer is supporting the Volunteers as they create a Peer
Support Network.

Volunteers reported that they are usually able to reach staff easily via phone, and some
Volunteers have access to email. However, Volunteers emphasized that internet and email are
not reliable communication methods and should not be used for important, time-sensitive
information.




Final Program Evaluation Report: Peace Corps/Liberia                                                14
Eighty percent (12 of 15) of the interviewed Volunteers were satisfied with the number of site
visits they received. Staff delayed visiting some of the PCRVs who began their service in
January 2011 because of the arrival of the new CD and the timing of the evaluation fieldwork.
However, the staff planned to conduct these site visits after the evaluation fieldwork was
completed. Ninety-two percent of the interviewed volunteers rated the quality of the site visits
favorably.

The VAC, which held its first meeting in November 2010, was too new for many Volunteers to
evaluate, and most Volunteers were unaware of the VAC’s activities. At the time of the
evaluation fieldwork, the VAC had only held two meetings and was finalizing its by-laws.

Two-year Volunteers were inadequately prepared for Liberia’s post-conflict-related
challenges.

From 1980 to 2003 Liberia experienced significant upheaval, including a military coup, an
armed rebellion, and a prolonged civil war. Children were recruited to fight in the war, and
many Liberians fled to neighboring countries as refugees. The country has been rebuilding since
an August 2003 peace agreement was signed, but there continue to be challenges with basic
infrastructure, transportation, and limited resources. The years of civil war also had an
emotional impact on Liberians. These factors combine to present a stressful environment for
Volunteers to live in and conduct their work. The Volunteer Welcome Book states that
Volunteers in Liberia will receive additional training to help them manage their mental health
“while serving in a post-conflict country suffering from post-traumatic stress disorder.”

During PST, Volunteers participated in training sessions about Liberia’s history and the
community impact of post traumatic stress disorder. When asked if they had been adequately
prepared to serve in a post-conflict country, only one of seven two-year Volunteers rated the
support and information favorably. Volunteers reported that the post-conflict environment
impacted their community integration and their effectiveness in their work assignment. Some
Volunteers reported being scared of their students, co-workers, and community members and did
not know how to deal with students who might have been ex-combatants. The two-year
Volunteers found the history and background information beneficial but expressed the need for
additional information, particularly strategies that could better enable them to manage the post-
conflict-related challenges they encounter. Volunteer comments reflect some of their challenges
and their request for more training:

        “PTSD [is] everywhere. I don’t know what to do or say. It's scary sometimes. You hear stories
        of what people did in the war and you realize they're living around you.”

        “They gave good background on what the country and people went through but there needs to be
        more follow through on how to use that and what it means. Recognition of what post-conflict
        means – poor communication, supplies and greater challenges. And then tell how to manage that
        better.”

        “One thing we didn't address in training is what if your students are ex-combatants. It's possible
        they were.”




Final Program Evaluation Report: Peace Corps/Liberia                                                         15
         “At training we went over the civil war and its history but I don't know that it prepared us for
         working in this.…They talked about stuff like corruption and how to deal with it if someone tells
         you a war story but it was limited. I wish it was more extensive.”

Some regional staff stated that they wanted to request Volunteers with backgrounds that could
help them serve in a post-conflict country. However, they were discouraged from doing so
because the agency was focused on recruiting generalist Volunteers and could not recruit
Volunteers with specific backgrounds.8 In light of this, it will be important for the agency to
take extra steps to inform Volunteers of the post-conflict-related challenges they will face and
provide them with strategies to overcome these challenges. This effort to educate and inform
should start early in the process, beginning with the placement invitation, and continue through
the Volunteer’s service.

         We recommend:

          12. That the country director and the Peace Corps medical officer
              work with post-conflict specialists in the Africa region and the
              Counseling and Outreach Unit to develop a strategy and plan to
              prepare invitees and Volunteers for post-conflict-related
              challenges.


Safety and security weaknesses could result in an inadequate response to emergencies.

According to the agency’s primary safety and security policy, manual section (MS) 270, the
agency’s safety and security program is based on several factors, including “the necessity of
having plans in place to respond promptly and effectively to threats or events.” MS 270.8.1
further states that “Each post must develop and maintain a detailed EAP that addresses the most
likely emergency situations that would impact Peace Corps personnel and operations.”

The evaluation uncovered several deficiencies in the post’s emergency preparedness, including
Volunteers’ knowledge of their consolidation points; the completeness and accuracy of SLFs;
EAP distribution and testing; and the duty officer system.

Consolidation points
Forty percent of interviewed Volunteers could not correctly identify their consolidation points.
The list of consolidation points in the EAP was not well-organized, and it was difficult to
ascertain each Volunteer’s consolidation point. Furthermore, the EAP did not include directions
to the various consolidation points or provide identifying information to help Volunteers locate a
consolidation point they had not previously visited.

SLFs
We found that Volunteers were not accurately completing their SLFs, which are documents that
contain communication and logistical information to help staff support Volunteers during crises.

8
 The term “generalist” refers to Volunteers who are college graduates with limited specialized technical skills or
experience.


Final Program Evaluation Report: Peace Corps/Liberia                                                                 16
Fifty-three percent of the SLFs we reviewed were missing at least one key piece of information,
such as the Volunteer’s phone number, community police contact information, community
medical facility, and the location of and directions to the consolidation point. Inaccuracies on
the SLFs, including incorrect consolidation points, were not detected by staff because they do not
review the forms for completeness and accuracy after submission. Also, staff was not collecting
SLFs in a timely manner after Volunteer site changes. The post had not received updated SLFs
for Volunteers who had changed sites over two months prior to the evaluation. Staff stated that
they had not followed up with Volunteers concerning the SLFs.

EAP distribution
The post is not providing updated copies of the EAP to Volunteers, staff, and the embassy. Two-
year Volunteers most recently received a copy of the EAP in September 2010; however, they did
not receive an updated version after the new PCRVs arrived in January 2011. Volunteers need
an updated EAP because the post uses a Volunteer warden system, and wardens may be called
upon to notify Volunteers in their area if the EAP is activated. The EAP contains warden
information, Volunteer contact information, and an emergency phone tree. At the time of the
evaluation, all of the wardens were two-year Volunteers. Because the post’s EAP was outdated,
some wardens did not have contact information for the Volunteers they would be responsible for
contacting in the event of an emergency.

The embassy’s regional security officer (RSO) and the post’s duty officer bag contained outdated
EAPs. Both of these copies were dated April 2010. Because of the timing of the post’s
Volunteer inputs, only one of the 30 Volunteers serving at the time of the evaluation would have
been included in the April 2010 EAP. Even though Volunteer contact information is maintained
electronically in the Volunteer information database application, the duty officer bag should
include an up-to-date EAP in case electronic information is not available when the EAP is
activated.

EAP testing
The post tested its EAP with an unannounced cell phone test in November 2010. However, it
has not conducted a non-cell phone test since the current wardens arrived in August 2010.
Conducting this test this is important because the telephone landline system in Liberia has not
fully recovered from the war and Volunteers primarily rely on cell phones. If the cell phone
network went down, Volunteers would need an alternate way to receive messages.

Duty officer system
The post uses a duty officer system to ensure a staff member is available in the event of an
emergency. The post’s duty officer bag was disorganized and contained multiple logs and
incident report forms, and, as noted above, did not contain the most recent EAP. It is unlikely
that staff would be able to quickly access needed information in an emergency.

The deficiencies in numerous elements of the post’s safety and security systems raise concerns
about staff and Volunteers’ ability to quickly and effectively respond to an emergency. The
evaluation revealed that important safety and security documents are not appropriately reviewed
and distributed to people who may be required to respond to an emergency. Although the
regional security advisor and the regionally-based Peace Corps safety and security officer have



Final Program Evaluation Report: Peace Corps/Liberia                                              17
provided guidance to the SSC as he learns Peace Corps’ systems and processes, the post needs
continued safety and security oversight and monitoring to ensure he is receiving proper training
and deficiencies are addressed.

        We recommend:

         13. That the country director ensure that all Volunteers know the
             location of their consolidation point.

         14. That the country director ensure that Volunteers are adequately
             informed of their consolidation points during training.

         15. That the country director ensure that all wardens have at least
             two methods of contacting the Volunteers in their region.

         16. That the country director require appropriate staff members to
             review the accuracy and completeness of site locator forms.

         17. That the country director ensure that the most current version of
             the Emergency Action Plan is included in the duty officer bag and
             distributed to Volunteers, staff, the embassy regional security
             officer, and neighboring posts that are listed as possible
             evacuation sites.

         18. That the country director ensure that the post develops a process
             to provide updated Emergency Action Plans to all Volunteers,
             staff, the embassy regional security officer, the duty officer bag,
             and neighboring posts that are listed as possible evacuation sites
             after changes are made.

         19. That the country director develop and implement a plan to
             ensure that the post conducts a non-cell phone emergency action
             plan test.

         20. That the country director ensure that the post updates and
             organizes the duty officer binder.

         21. That the country director, in consultation with the regional
             security advisor and Peace Corps safety and security officer,
             develop a professional development plan for the safety and
             security coordinator and monitor progress towards those goals.

         22. That the Peace Corps safety and security officer conduct a
             complete review of the post’s safety and security systems and
             recommend changes to ensure the post is in compliance with all
             agency safety and security policies and procedures and is taking
             an appropriate security posture for the environment.


Final Program Evaluation Report: Peace Corps/Liberia                                           18
Volunteer housing did not meet the post’s housing criteria.

Sixty-nine percent (9 of 13) of the inspected houses did not fully comply with the post’s housing
criteria at the time of the evaluation, and 77 percent of the interviewed Volunteers reported that
their housing did not meet all the criteria upon their move-in.9 Common areas of non-
compliance included general safety of the neighborhood and proximity to neighbors; roofing;
door construction; and door locks. See Appendix A for a complete copy of the post’s site
selection and housing criteria.

MS 270.6.3, Housing Standards, states:

        “All [Volunteer/trainee] housing or host family arrangements must be inspected by post staff (or a
        trained designee) prior to occupancy to ensure each house and/or homestay arrangement meets all
        minimum standards as established by the Peace Corps and the post. Reports of the inspections
        must be documented and maintained by the post.”

A review of the housing checklists completed by staff before Volunteers arrived at their sites
revealed that these forms are not being accurately completed during site development. The
housing checklists completed by the Evaluator were compared to those completed by the SSC.
Ninety-one percent (10 of 11) of the reviewed housing checklists completed by staff showed full
compliance with the housing criteria even though 69 percent of the houses reviewed as part of
the evaluation showed at least one area of non-compliance.10 Although some of the deficiencies
such as roof leaks might not have been detectable during site development, other deficiencies,
such as window bars, door locks, and door construction, should have been checked, accurately
documented, and addressed before the Volunteer arrived at site. In at least one case, the SSC did
not complete a housing checklist for a site because it had previously been occupied by a
Volunteer.

Housing deficiencies create potential security risks for Volunteers, and some of the interviewed
Volunteers had to change sites because of housing-related problems that should have been
resolved before they arrived. Housing previously occupied by Volunteers should be reviewed
before a new Volunteer moves in because housing conditions may change during a Volunteer’s
service. In addition to placing Volunteers at risk, the lack of proper housing checks made some
Volunteers question the extent to which the SSC takes his duties seriously. This could damage
the SSC’s credibility with Volunteers and diminish his effectiveness.

        We recommend:

          23. That the country director ensure that staff inspect all current
              Volunteer housing and address any deficiencies.




9
  Fifteen Volunteers were interviewed as part of the evaluation but two sets of roommates were interviewed. Their
housing assessments were only counted once to avoid double counting.
10
   Thirteen Volunteer houses were reviewed as part of the evaluation but only 11 housing checklists were available
for review because the post was missing the other two housing checklists.


Final Program Evaluation Report: Peace Corps/Liberia                                                             19
         24. That the country director ensure that staff inspect all prospective
             Volunteer housing and address any deficiencies before a
             Volunteer’s arrival at site.

         25. That the country director ensure that the post is maintaining
             accurate housing inspection reports.


Volunteers are not satisfied with tone, content, and frequency of safety and security-related
communications.

At the time of this evaluation, Liberia was experiencing several situations that could pose safety
and security risks to Volunteers. Cote D’Ivoire, a border country, was experiencing violence as a
result of political unrest. In Liberia, a verdict was expected in the Hague war crimes trial of a
former Liberian president. In addition, Liberia was preparing for presidential elections in
October 2011.

Over 50 percent of interviewed Volunteers raised concerns about the current security situation in
Liberia and a perceived lack of seriousness by the SSC in addressing safety and security risks.
Although Volunteers appreciate the SSC’s positive attitude, they stated that safety and security
needs to be taken more seriously. Volunteers reported that the SSC laughs and jokes too much
when discussing safety and security topics, does not appear serious in training, and dismissed
concerns they raised about security threats witnessed in their communities. Sample comments
from Volunteers illustrate their concerns:

        “It's like it's a joke. [The SSC] giggles and laughs and there needs to be more seriousness. He
        never tells us to be serious about it. He laughs through the entire session.”

        “All this war business, [the SSC is] laughing and joking about it.… It seems that the people here
        aren't as affected by war as we are because they were at war for 25 years. [The SSC] said not to
        worry about it.”

        “[The SSC] was here during the war so if you tell him there are people with guns on the border he
        thinks that's ok. I want to talk to someone who will take it more seriously.”

Volunteers were also concerned that the post is not proactive enough in preparing for and
addressing security threats such as the upcoming Liberian presidential election and the political
violence in Cote D’Ivoire. At the time of the evaluation, several interviewed Volunteers placed
near the border with Cote D’Ivoire had witnessed an increasing number of refugees and
international support organizations. Comments from Volunteers include the following:

        “In the upcoming election the previous warlord is running for president. He has a militia in [a
        bordering county]. I'm scared … when we ask Peace Corps about it they don't have any good
        information.”

        “My major question is in regards to conflict in the region and what should be the response and
        preparedness of Peace Corps.…There have been reports of people coming to Liberia and Liberians
        going [to Cote D’Ivoire] to fight. I don't know what Peace Corps is doing.”




Final Program Evaluation Report: Peace Corps/Liberia                                                        20
MS 270.4.0 requires posts to keep Volunteers informed of safety and security risks throughout
their service and provide “accurate, comprehensive, and timely information” so Volunteers can
minimize the risks. We found that the post was taking steps to monitor the security environment,
but was not proactively communicating the information to Volunteers. Post staff was receiving
security updates during weekly meetings at the embassy and attended UN-led meetings of the
Humanitarian Advisory Committee. The post was testing back-up evacuation routes and
discussing ways to ensure transportation would be available for Volunteers if they needed to
consolidate or evacuate. Staff was also trying to maintain frequent communications with
Volunteers and was receiving updates from Volunteers located closer to the border with Cote
D’Ivoire. However, the post was not proactively communicating this information to Volunteers
on a regular basis. Volunteers did not receive regular safety and security updates and the last
two Volunteer newsletters did not contain safety and security information.

Poor safety and security communication has been an ongoing area of concern at the post. After a
security incident in March 2009, Volunteers raised concerns about the way Peace Corps
managed the situation, particularly regarding the support they received from the local staff. In
response, Peace Corps conducted a management assessment of operations in Liberia. The
assessment team determined that the post appropriately managed the initial circumstances and
follow-up but could have done a better job communicating with Volunteers.

The country director planned to start sending weekly text messages to Volunteers with safety and
security-related information. Working to provide Volunteers with regular, updated safety and
security information will help alleviate Volunteers’ concerns and give them the information they
need to respond to an emergency.

        We recommend:

         26. That the country director and safety and security coordinator
             develop a strategy and plan to regularly communicate safety and
             security information to Volunteers.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:

        Training adequacy
        Planning and development of the training life cycle
        Staffing and related budget

By the time of the evaluation, two-year Volunteers at the post had participated in several
trainings, including PST; a Reconnect after three months of service; and a perma-garden training
after five months of service. PCRVs also participated in the perma-garden training as part of
their in-country orientation. Overall, we found that Volunteers were satisfied with the culture



Final Program Evaluation Report: Peace Corps/Liberia                                          21
and medical/health portions of PST, the perma-garden training, and the PCRV orientation. The
following table summarizes Volunteers’ perceptions on the effectiveness of their training.

                           Table 1: Volunteer Perceptions of Training Effectiveness
                                Area               Percent of Volunteers        Average
                                                   Who Rated Training           Rating
                                                        Favorably)
                         PST: a
                           Language                          0%                     1.7
                           Culture                          86%                     3.0
                           Safety/Security                  57%                     2.4
                           Medical/Health                  100%                     4.0
                           Technical                        57%                     3.0
                         Reconnectb                         33%                     2.2
                         Perma-gardenc                     100%                     4.3
                         PCRV orientationd                  88%                     3.5
                     Source: OIG Volunteer Interviews, 2011
                     a
                      N = 7, bN = 6, cN = 15, dN = 8

In reviewing the post’s process for planning and developing training, the availability of training
resources, and trainee assessments, OIG found no significant areas of concern that would warrant
action by the post.

The post uses an inclusive process when planning and delivering Volunteer training and gathers
input from staff members in multiple units. Staff also reported that they have adequate resources
to deliver Volunteer training. The region supported the post in hiring a full-time language and
cross-cultural coordinator, and the post is able to find qualified part-time staff to assist with PST.

Even though the post has not finalized the TDE process, the training staff assessed trainees’
skills during the 2010 PST. While the post had not administered an official language proficiency
test to trainees, the training staff assessed their language skills. During PST, trainees took a
medical pre- and post-test, and trainees’ technical skills were observed and assessed by staff
twice.

Volunteers were not well-prepared to speak local languages.

English is the official language of Liberia, although locals speak a dialect referred to as “Liberian
English” along with local languages. To prepare Volunteers for service, trainees learned
Liberian English and the local language spoken in their assigned community. During the 2010
PST, nine local languages were taught.

Local language proficiency is an important component of a successful Volunteer experience.
The Peace Corps Acts states that:

        No person shall be assigned to duty as a volunteer under this chapter in any foreign country or area
        unless at the time of such assignment he possesses such reasonable proficiency as his assignment
        requires in speaking the language of the country or area to which he is assigned.




Final Program Evaluation Report: Peace Corps/Liberia                                                           22
None of the two-year Volunteers interviewed as part of the evaluation rated PST language
training favorably. Volunteers stated that too much focus was placed on Liberian English. A
review of the post’s 2010 PST training calendar revealed that over 27 training hours were spent
on Liberian English while less than four hours were provided for local language training.
Although Volunteers found knowledge of key phrases helpful, some stated that their PST
homestay experience was often more useful in teaching practical Liberian English than the
formal training sessions. Volunteers stated that familiarity with the local language impacted
community integration, and they recommended that training focus more on local language
instruction.

Volunteers provided feedback regarding their need for local language in their PST evaluations,
and post staff stated that they were planning to increase the number of local language training
sessions in the 2011 PST. Identifying tutors for Volunteers to work with after they are posted at
their sites would also improve local language proficiency.

        We recommend:

         27. That the training manager increase local language instruction.


Improvements in the delivery of safety and security training could increase its effectiveness.

According to MS 270 section 5.0, “Each post must provide [Volunteers/trainees] with a program
of ongoing safety and security training…” The post provided approximately 10 hours of training
in the 2010 PST that were focused exclusively on Volunteer safety and security.

Two-year Volunteers reported mixed satisfaction levels with the safety and security training they
received during PST. Fifty-seven percent (4 of 7) of the two-year Volunteers rated the training
favorably with a 2.4 average; none of the interviewed Volunteers rated the training higher than
“moderately effective.” Some Volunteers stated that the SSC joked too much and did not deliver
the training in a serious manner. Volunteers also stated that the training was disorganized and
they questioned the accuracy of the information and strategies presented.

Improvements in the delivery of safety and security training could increase its effectiveness and
ensure Volunteers are appropriately informed of crime risks and know how to respond to
emergencies. The embassy’s RSO offered to participate in future Volunteer training sessions.
The post might want to consider this as one way of stressing the importance of the post’s safety
and security systems.

        We recommend:

         28. That the country director, training manager, and safety and
             security coordinator develop a strategy and plan to improve
             safety and security training.




Final Program Evaluation Report: Peace Corps/Liberia                                             23
Technical training instruction needs to be improved.

MS 201 “Eligibility and Standards for Peace Corps Volunteer Service” states that a
trainee must demonstrate technical competence, which is defined as “proficiency in the
technical skills needed to carry out the assignment,” by the end of training. The post provided
over 40 hours of technical training to Volunteers and held several model school sessions during
the 2010 PST. Overall, 57 percent (4 of 7) of the two-year Volunteers interviewed as part of the
evaluation found technical training to be effective. Volunteers stated that the sessions led by
experienced Volunteers from another African post were most helpful. However, aside from
those Volunteer-led sessions, Volunteers were disappointed with some of the instruction and
information provided by staff and guest speakers.

        “The Volunteers that were leaving were phenomenal. I learned more from them than everyone
        else combined.”

        “[Technical training] was basically done by other Volunteers. In some ways that's really good but
        I also wish there were staff members who could train us on it.”

        “Some of the Volunteers who were on their way out helped train us and told us what to expect.
        But anyone they brought in - principals and district people - they didn't know which way was up
        and couldn't give us answers. I didn't feel prepared.”

Because it was the post’s first PST since the program re-opened, it is understandable that
Volunteers noted areas for improvement. Furthermore, as already noted in the Management
Controls section of the report, the post did not have a full-time DPT who could provide the
oversight that was needed for relatively new staff members not yet familiar with Peace Corps
processes and training methods. The post could likely benefit from ongoing guidance and
training participation by experienced staff members and Volunteers, even if they are from
another post. More effective technical training sessions could better prepare Volunteers for some
of the work-related challenges they face.

        We recommend:

         29. That the country director, training manager, and programming
             staff members develop a strategy and plan to improve technical
             training.


Some Volunteers reported that the IST sessions were not useful.

In addition to PST, two-year Volunteers had also received two ISTs before the evaluation was
conducted. Two-year Volunteers participated in a “Reconnect” IST approximately three months
after swearing in. Programming staff originally planned to conduct another IST a few months
later but subsequently altered these plans. In lieu of a second IST, two-year Volunteers received
perma-garden training in January 2011.11

11
  This training occurred approximately five months after two-year Volunteers swore in. PCRVs also participated as
part of their in-country Response orientation.


Final Program Evaluation Report: Peace Corps/Liberia                                                          24
While the post has made efforts to provide Volunteers with an adequate amount of training, some
Volunteers did not think the ISTs were sufficient. Two-year Volunteers stated that Reconnect
did not provide them with useful information they could apply at their sites. Only 33 percent of
the two-year Volunteers rated Reconnect favorably, with a 2.2 average. Some Volunteers also
questioned the purpose of the perma-garden training. Volunteers rated the session favorably
because it was a well-run training session led by a qualified instructor. However, some
Volunteers questioned its usefulness and applicability in Liberia.

Peace Corps’ Programming and Training Guidance “Training Design and Evaluation” instructs
posts to develop a training continuum that identifies when major learning objectives will be
accomplished throughout the Volunteers’ 27 months of service. The content of the training
continuum and individual training sessions is driven by the competencies and learning objectives
required to successfully carry out the Volunteer project. By developing a training continuum,
Volunteer training sessions build upon one another and provide Volunteers with the skills they
need at a particular point in their service.

Although the post has conducted several training sessions, staff was unable to develop a training
continuum and adhere to its training schedule. Since the two-year Volunteers arrived in July
2010, programming and training staff had to make numerous changes to their training calendar,
including the timing and content of ISTs. As a result of the training changes and the lack of a
stable training schedule, post staff did not develop training programs that met Volunteers’ needs
or maximized the post’s limited financial resources. Completing the project plan and updating
the competencies and learning objectives should allow the staff to develop a training continuum
and improve the timing and content of future ISTs.

        We recommend:

         30. That the training manager, with assistance from specialists in the
             Office of Programming and Training Support, as appropriate,
             develop a training continuum.


Most PCRVs did not receive an adequate orientation from their supervisor or counterpart
upon arrival at their project work site.

In addition to the orientation provided by post staff, the PC/Liberia Volunteer handbook and the
PCRV job descriptions state that PCRVs should receive an orientation from their supervisor or
counterpart upon arrival at their project work site. Only 38 percent (3 of 8) of the interviewed
PCRVs received an orientation at site, and Volunteers were unsure what the orientation was
supposed to cover. Some Volunteers were not introduced to co-workers or provided an overview
of their organization’s operations.

Post staff did not always provide supervisors and counterparts with clear, written guidance
concerning work site orientations, which also affected the quality and content of the orientations.




Final Program Evaluation Report: Peace Corps/Liberia                                             25
The post should reinforce the need for these site orientations and provide guidance on the content
that needs to be covered.

        We recommend:

         31. That the program manager determine whether Peace Corps
             Response Volunteers should receive an orientation upon arrival
             at site and, if so, update related documentation and deliver
             training accordingly.


Two-year Volunteers did not receive sufficient training and information to complete the
Volunteer Reporting Forms.

Peace Corps’ Programming and Training Guidance “Project Design and Evaluation” describes
the recommended process for developing Peace Corps projects. Posts are expected to develop a
monitoring and evaluation plan to measure project implementation and evaluate how well the
project is working. Volunteers play a role in the agency’s monitoring and evaluation activities by
collecting baseline data, observing and documenting behavior changes of targeted populations,
and reporting information to their APCD/PM in the Volunteer Reporting Form (VRF).
Volunteers’ performance data is reported to headquarters through the project status report
process and used in the agency-wide aggregation included in the agency’s PAR.12 Programming
and training staff is expected to develop the initial monitoring and evaluation plan and train
Volunteers. The guidance states, “It is important that Volunteers be properly trained in how to
fulfill their monitoring and evaluation roles, and that they understand how the information they
provide will be used.”

Two-year Volunteers we spoke to did not feel well-prepared to gather and submit performance
information. Although they acknowledged that performance reporting was covered during
training, they stated that the training was brief and confusing, and the need to collect
performance data had not been reinforced by staff after they took up their projects. Volunteers
did not have a clear understanding of what was expected of them and how and when they needed
to report performance data.

At the time of the evaluation, staff had not set up the VRT or determined the reporting frequency
and method, although they briefly covered performance reporting during PST and Reconnect and
distributed activity tracking booklets to Volunteers. Staff reported that they were planning to
provide more guidance to Volunteers in the April 2011 IST.

The reliability of the post’s performance data is dependent on the training and guidance
Volunteers receive. Given the significance of the PAR data, it is important for all Volunteers to
submit accurate, timely performance reports. Volunteers need to clearly understand what kind of
information to collect and how and when they need to report the data.

12
  As required by the Government Performance and Results Act and related Office of Management and Budget
guidance, the Peace Corps prepares strategic and annual performance plans and reports results annually in its
Performance and Accountability Report.


Final Program Evaluation Report: Peace Corps/Liberia                                                            26
        We recommend:

         32. That the country director ensure that the staff has set up the
             volunteer reporting tool and is collecting Volunteer performance
             data.

         33. That the training manager improve performance reporting
             training for Volunteers.




Final Program Evaluation Report: Peace Corps/Liberia                            27
                  OBJECTIVE, SCOPE AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and to
promote economy, effectiveness, and efficiency in government. In February 1989, the Peace
Corps OIG was established under the Inspector General Act of 1978 and is an independent entity
within the Peace Corps. The Inspector General is under the general supervision of the Peace
Corps Director and reports both to the Director and the Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Liberia on December
10, 2010. For post evaluations, we use the following researchable questions to guide our work:

    To what extent has post developed and implemented programs to increase host country
    communities’ capacity?
    Does training prepare Volunteers for Peace Corps service?
    Has the post provided adequate support and oversight to Volunteers?
    Are post resources and agency support effectively aligned with the post’s mission and agency
    priorities?

The evaluator conducted the preliminary research portion of the evaluation December 13, 2010-
March 4, 2011. This research included review of agency documents provided by headquarters
and post staff; interviews with management staff representing the Africa region, OPATS, PCR,
the office of Volunteer Support, and the office of Safety and Security; and inquiries to the office
of Volunteer Recruitment and Selection and the Office of Private Sector Initiatives.

In-country fieldwork occurred from March 7-25, 2011, and included interviews with post senior
staff in charge of programming, training, and support; the embassy RSO; and host country
government ministry officials. In addition, we interviewed a stratified judgmental sample of 15
Volunteers (50 percent of Volunteers serving at the time of our visit) based on their length of
service, site location, project focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (formerly the President’s
Council on Integrity and Efficiency). The evidence, findings, and recommendations provided in
this report have been reviewed by agency stakeholders affected by this review.




Final Program Evaluation Report: Peace Corps/Liberia                                              28
                                INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 15 Volunteers, nine staff
members in-country, and 21 representatives from Peace Corps headquarters in Washington D.C.,
the U.S. Embassy in Liberia, and key ministry officials. Volunteer interviews were conducted
using a standardized interview questionnaire, and Volunteers were asked to rate many items on a
five-point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of
these ratings provided a quantitative supplement to Volunteers’ comments, which were also
analyzed. For the purposes of the data analysis, Volunteer ratings of “3” and above are
considered favorable. In addition, all 15 Volunteer interviews occurred at the Volunteers’ homes,
and we inspected these homes using post-defined site selection criteria. The period of review for
a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Liberia; the Volunteer sample was selected to reflect these demographics.

                                Table 2: Volunteer Demographic Data
                                                                          Percentage of
                                     Project
                                                                           Volunteers
                Secondary Education (two-year Volunteers)                     43%
                Education (PCRVs)                                             37%
                Community Health (PCRVs)                                      20%
                                                                          Percentage of
                                     Gender
                                                                           Volunteers
                Female                                                        57%
                Male                                                          43%
                                                                          Percentage of
                                       Age
                                                                           Volunteers
                25 or younger                                                 43%
                26-29                                                         30%
                30-49                                                         17%
                50 or over                                                     7%
              Source: February 2011 PC/Liberia Volunteer roster.
              Note: Percentages may not total 100% due to rounding.

At the time of our field visit, PC/Liberia had 20 staff positions. The post also employs temporary
staff/contractors to assist with PST. Given the time of our visit, these positions were not staffed.
We interviewed nine staff members.

                    Table 3: Interviews Conducted with Post Staff Members
                                Position                                  Status      Interviewed
        Country Director                                              USDH                 X
        Peace Corps Medical Officer                                   PSC                  X
        Safety and Security Coordinator                               PSC                  X




Final Program Evaluation Report: Peace Corps/Liberia                                                29
           Director of Programming and Training13                      USDH                      X
           Program Manager                                             PSCa                      X
           Training Manager                                            PSC                       X
           Program Assistant (2)                                       PSC                       X
           Language and Cross Cultural Coordinator                     PSC
           Director of Management and Operations                       USDH                      X
           Financial Assistant                                         FSNb
           Cashier                                                     FSN
           Information Technology Specialist                           PSC
           Receptionist                                                PSC
           General Services Manager                                    PSC
           Driver (3)                                                  PSC
           Janitor (2)                                                 PSC
       Data as of April 2011.
       a
        Personal Services Contractor
       b
        Foreign Service National

Twenty-one additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

     Table 4: Interviews Conducted with PC/Headquarters Staff, Embassy Officials and Key
                                      Ministry Officials
                        Position                                        Organization
      Regional Director                                PC/Headquarters/Africa Region
      Chief of Operations                              PC/Headquarters/Africa Region
      Chief Administrative Officer                     PC/Headquarters/Africa Region
      Chief of Programming and Training                PC/Headquarters/Africa Region
      Program and Training Specialist                  PC/Headquarters/Africa Region
      Country Desk Officer                             PC/Headquarters/Africa Region
      Country Desk Assistant                           PC/Headquarters/Africa Region
      Regional Security Advisor                        PC/Headquarters/Africa Region
      Supervisor, Program Support Unit                 PC/Headquarters/OPATS
      Evaluation Specialist                            PC/Headquarters/OPATS
      Technical Training Specialist                    PC/Headquarters/OPATS
      Language and Cross Cultural Specialist           PC/Headquarters/OPATS
      Director                                         PC/Headquarters/PCR
      Chief of Operations                              PC/Headquarters/PCR
      International Health Coordinator                 PC/Headquarters/VSa
      Expert-Consultant                                PC/Headquarters/VS
      PC Safety and Security Officer                   PC/Headquarters/SSb
      Deputy Chief of Mission                          U.S. Embassy in Liberia
      Regional Security Officer                        U.S. Embassy in Liberia

13
  The Director of Programming and Training position is shared by Peace Corps’ posts in Sierra Leone and Liberia.
Thirty percent of the DPT’s time is focused on PC/Liberia.


Final Program Evaluation Report: Peace Corps/Liberia                                                           30
       Minister                                        Ministry of Education
       Deputy Minister                                 Ministry of Health and Social Welfare
   Data as of April 2011.
   a
    Office of Volunteer Support
   b
    Office of Safety and Security




Final Program Evaluation Report: Peace Corps/Liberia                                           31
                            LIST OF RECOMMENDATIONS
WE RECOMMEND:

    1. That the country director work with the post’s programming team, the Africa region, and
       the Office of Programming and Training Support, as appropriate, to develop a strategy
       and plan to improve Volunteer effectiveness in their primary assignments.

    2. That the country director work with the post’s programming team to develop a strategy
       and plan to help Volunteers identify counterparts.

    3. That the country director work with the programming team to revise the Volunteer
       Assignment Descriptions to emphasize the importance of secondary activities given the
       challenges of working in the Liberian school system.

    4. That the training manager review pre- and in-service training programs to ensure that
       they adequately address and prepare Volunteers to identify and carry out secondary
       activities.

    5. That the country director and programming team obtain the necessary input from the
       office of programming and training support and finalize the secondary education project
       plan.

    6. That country director and Peace Corps Response director review the post’s Peace Corps
       Response program and establish its purpose and intended goals.

    7. That the associate director for Global Operations and the director of Peace Corps
       Response develop a process to assess the results of Peace Corps Response pilot programs
       before launching a two-year Volunteer program.

    8. That the associate director for Global Operations work with the post, Africa region, and
       Peace Corps Response to document lessons learned from the post’s opening and
       incorporate them into existing new country entry processes and policies, as appropriate.

    9. That the regional director of the Africa region ensure the post hires an experienced, full-
       time United States Direct Hire employee to oversee the programming and training unit.

    10. That the country director ensure that the staff creates a more stream-lined, coherent filing
        structure for programming and training and safety and security documents.

    11. That the country director clarify roles and responsibilities of post staff, correct instances
        of unclear ownership of office processes, and make staff accountable for performing their
        duties as prescribed.




Final Program Evaluation Report: Peace Corps/Liberia                                               32
    12. That the country director and the Peace Corps medical officer work with post-conflict
        specialists in the Africa region and the Counseling and Outreach Unit to develop a
        strategy and plan to prepare invitees and Volunteers for post-conflict-related challenges.

    13. That the country director ensure that all Volunteers know the location of their
        consolidation point.

    14. That the country director ensure that Volunteers are adequately informed of their
        consolidation points during training.

    15. That the country director ensure that all wardens have at least two methods of contacting
        the Volunteers in their region.

    16. That the country director require appropriate staff members to review the accuracy and
        completeness of site locator forms.

    17. That the country director ensure that the most current version of the Emergency Action
        Plan is included in the duty officer bag and distributed to Volunteers, staff, the embassy
        regional security officer, and neighboring posts that are listed as possible evacuation
        sites.

    18. That the country director ensure that the post develops a process to provide updated
        Emergency Action Plans to all Volunteers, staff, the embassy regional security officer,
        the duty officer bag, and neighboring posts that are listed as possible evacuation sites
        after changes are made.

    19. That the country director develop and implement a plan to ensure that the post conducts a
        non-cell phone emergency action plan test.

    20. That the country director ensure that the post updates and organizes the duty officer
        binder.

    21. That the country director, in consultation with the regional security advisor and Peace
        Corps safety and security officer, develop a professional development plan for the safety
        and security coordinator and monitor progress towards those goals.

    22. That the Peace Corps safety and security officer conduct a complete review of the post’s
        safety and security systems and recommend changes to ensure the post is in compliance
        with all agency safety and security policies and procedures and is taking an appropriate
        security posture for the environment.

    23. That the country director ensure that staff inspect all current Volunteer housing and
        address any deficiencies.

    24. That the country director ensure that staff inspect all prospective Volunteer housing and
        address any deficiencies before a Volunteer’s arrival at site.


Final Program Evaluation Report: Peace Corps/Liberia                                                 33
    25. That the country director ensure that the post is maintaining accurate housing inspection
        reports.

    26. That the country director and safety and security coordinator develop a strategy and plan
        to regularly communicate safety and security information to Volunteers.

    27. That the training manager increase local language instruction.

    28. That the country director, training manager, and safety and security coordinator develop a
        strategy and plan to improve safety and security training.

    29. That the country director, training manager, and programming staff members develop a
        strategy and plan to improve technical training.

    30. That the training manager, with assistance from specialists in the Office of Programming
        and Training Support, as appropriate, develop a training continuum.

    31. That the program manager determine whether Peace Corps Response Volunteers should
        receive an orientation upon arrival at site and, if so, update related documentation and
        deliver training accordingly.

    32. That the country director ensure that the staff has set up the volunteer reporting tool and
        is collecting Volunteer performance data.

    33. That the training manager improve performance reporting training for Volunteers.




Final Program Evaluation Report: Peace Corps/Liberia                                              34
                                    LIST OF ACRONYMS
  DPT              Director of Programming and Training
  EAP              Emergency Action Plan
  ET               Early Termination
  IST              In-Service Training
  MS               Manual Section
  OIG              Office of the Inspector General
  OPATS            Office of Programming and Training Support
  PAR              Performance and Accountability Report
  PCR              Peace Corps Response
  PCRV             Peace Corps Response Volunteer
  RSO              Regional Security Officer
  SLF              Site Locator Form
  SSC              Safety and Security Coordinator
  TDE              Training Design and Evaluation
  USDH             United States Direct Hire
  VAC              Volunteer Advisory Committee
  VAD              Volunteer Assignment Description
  VRF              Volunteer Reporting Form
  VRT              Volunteer Reporting Tool




Final Program Evaluation Report: Peace Corps/Liberia            35
APPENDIX A


         PC/LIBERIA SITE SELECTION AND HOUSING CRITERIA
The following is the post’s site selection and housing criteria dated September 2010.

Site:                          County:                     Contact Name/No.
Site History
Site history file verified by PM (if appropriate): Site history file verified?
Police security check re: the location of the house completed with the SSC: Security check completed?

                                         SITE CRITERIA
           WHAT                           STANDARDS                           WHO DOES WHAT
        House Location        Situated in a safe neighborhood           PM, SSC with community or host
                              within the community and                  sponsoring agency (CEO, School
Site meet these standards     surrounded by neighbors (minimum          Headmaster, Health Center
                              on three sides)*.                         Supervisor, Govt. Agency Head,
PM       SSC     PCMO         Not located near a bar, disco, or         etc.)
                              market. Area is clean of
                              weeds/rubbish.
        Communications        Phone or HF radio within one (1)          PM, SSC with host sponsoring
                              hour for emergency purposes by            agency to verify emergency
Site meet these standards     some mode of transportation (e.g.         communication options (e.g.
                              taxi, bus, private vehicle) for access    Health Center HF radio, Police HF
PM        SSC    PCMO         to phone.*                                radio, Telecenter, landline, SAT
                                                                        phone, etc.)
Transportation to County       The site should be no more than two      PM, SSC
    or District town           (2) hours by normal transport (e.g.
Site meet these standards      taxi, bus, private vehicle or bicycle)
                               to a market for basic foods, supplies
PM        SSC    PCMO          and seasonal produce.*
     Transportation to         Maximum 48 hours total travel time       PM, SSC
       MONROVIA                by a four-wheel drive vehicle
Site meet these standards      throughout the year.
PM      SSC       PCMO
     Medical Evacuation       Landing strip within 5 hours of the       PM, SSC and PCMO
      Transportation          PCV site that can be accessed year
Site meet these standard      round, in case of a medical
PM      SSC       PCMO        emergency evacuation.*
            Water             Reliable water source (ex. borehole,      PM, SSC with community or host
Site meet these standards     well, hand pump, etc.) within 100         sponsoring agency
                              meters or transported & available
PM       SSC     PCMO         year round.
                                     HOUSING CRITERIA
           WHAT                          STANDARDS                            WHO DOES WHAT
         Housing Type         Housing should conform to the same        PM, SSC with community or host
                              style found in the community              sponsoring agency
        Living Quarters       Minimum one room per/PCV                  Community with host sponsoring
The house meets standards     required (bedroom) with separate          agency identifies and PC approves.
PM     SSC      PCMO          kitchen inside (preferred) or outside.

Final Program Evaluation Report: Peace Corps/Liberia                                                     36
APPENDIX A

           Floor              All living quarter floors are cement     Community with host sponsoring
The house meets standards     and all cracks are sealed.*              agency provides material and labor.
PM     SSC      PCMO
                             HOUSING CRITERIA (Continued)
          WHAT                             STANDARDS                          WHO DOES WHAT
          Roofing             Made of galvanized tin sheeting, clay    Community with host sponsoring
The house meets standards     fired tiles, or thatch. Leak-proof,      agency provides roofing material
PM     SSC      PCMO          vermin-proof, bat-proof.                 and labor.
           Doors              Doors are constructed of solid metal     Community with host sponsoring
The house meets standards     or wood.* Doors should close tight       agency provides material and labor.
PM     SSC      PCMO          after locking.
         Windows              Windows are constructed of solid         Community with host sponsoring
The house meets standards     metal or wood and fitted with burglar    agency provides material and labor
PM     SSC      PCMO          bars (1” iron or metal mesh)*
  Ventilation and Light       Enough windows are present per           Community with host sponsoring
The house meets standards     room to provide cross-ventilation and    agency provides material and labor
PM     SSC      PCMO          light*
        Door locks            Double keyed lock or deadbolt for all    PCV replaces locks upon arriving at
The house meets standards     exterior doors of the house. Slide       site. Cost included in Volunteer’s
PM     SSC      PCMO          bolts inside exterior doors.             Setting-In Allowance (SIA).
   Screens on roof vents      Where roof vent exists, they must be     Community with host sponsoring
The house meets standards     screened-in to prevent the entry of      agency provides material and labor
PM     SSC      PCMO          vermin (i.e. bats, rats, feral cats,
                              etc.).
          Screens             Required on all windows and              Community with host sponsoring
The house meets standards     exterior doors.                          agency provides material and labor
PM     SSC      PCMO
      Interior Walls          Well plastered walls sound enough to Community with host sponsoring
The house meets standards     prevent entry of rain, rodents, etc. agency provides material and labor
PM     SSC      PCMO
       Drop Ceiling           Made of mat or wood material and         Community with host sponsoring
The house meets standards     sealed to prevent rats and bats from     agency provides material and labor
PM     SSC      PCMO          entering.
         Furniture            Minimum furnishings include: 1 bed       Community with host sponsoring
(Optional but desirable)      frame (wood/metal); 1 table, 3 chairs    agency provide, if not, PC will
The house meets standards     of any kind, 1 food safe (wooden),       review and decide on a case by case
                              and shelves (or wardrobe) to arrange     basis.
PM     SSC      PCMO          clothes.
Private Toilet/Bathing        Exclusive use by PCV only with           Community with host sponsoring
Area                          lock. Located inside house               agency provides material and labor
                              (preferred) and if outside not more
The house meets standards     than 10m from house. Cover for slab
PM     SSC      PCMO          or VIP latrine
          Vermin              No presence of flying creatures in the   Community ensures that house is
The house meets standards     roof when Volunteer moves into the       critter free prior to occupancy.
PM     SSC      PCMO          house.*

                                 NEGOTIABLE AMENITIES
          WHAT                            STANDARDS                          WHO DOES WHAT


Final Program Evaluation Report: Peace Corps/Liberia                                                      37
APPENDIX A

           Shade              Outside shaded area to greet visitors       PC will review the request on a case
                              is preferred. In case of need, PCV          by case basis.
                              will submit a request to the PM

        * Action required prior to posting the Volunteer at site

        N. B. While Settling-In Allowance (SIA) is intended to cover some of the items listed above,
        reimbursements may be provided for authorized expenses that exceed the SIA. Volunteers
        seeking reimbursement for items on this list must provide proof (receipts) that their SIA was not
        sufficient to bring the house up to the standards. PCVs should get approval from their PM PCMO
        and the AO before assuming that Peace Corps will reimburse them.


CERTIFICATION BY SPONSORING AGENCY OR COUNTERPART
A. I certify that the above mentioned standards have been met.


Signature:                                                          Date:

CERTIFICATION BY A PEACE CORPS STAFF MEMBER (PM, SSC, etc.)
A. I certify that the above mentioned standards have been met.

Signature:                                                          Date:

                                                       OR
      Additional action to be taken                           Person                 Who
                                                            Responsible              Pays




CERTIFICATION BY SPONSORING AGENCY OR COUNTERPART
B. I certify that all the above mentioned additional actions to be taken are now completed (Refer
to chart above)

Signature:                                                          Date:




Final Program Evaluation Report: Peace Corps/Liberia                                                       38
APPENDIX A



CERTIFICATION BY A PEACE CORPS STAFF MEMBER (PM, SSC, etc.)
B. I certify that all the above mentioned additional actions to be taken are now completed (Refer
to chart above)

Signature:                                                  Date:




Final Program Evaluation Report: Peace Corps/Liberia                                           39
APPENDIX B


                                   AGENCY’S RESPONSE




Final Program Evaluation Report: Peace Corps/Liberia   40
APPENDIX C



                                       OIG COMMENTS

Management concurred with all 33 recommendations. Based on the documentation provided, we
closed one recommendation: number seven. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the impact.

Thirty-two recommendations, number(s) 1-6 and 8-33, remain open. OIG will review and
consider closing recommendations 1, 3, 5-6, 9-15, 17-33 when the documentation reflected in the
agency’s response to the preliminary report is received. For recommendations 2, 4, 8, and 16,
additional documentation is requested. These recommendations remain open pending
confirmation from the chief compliance officer that the documentation reflected in OIG Analysis
below is received.

2: That the country director work with the post’s programming team to develop a strategy
and plan to help Volunteers identify counterparts.

        Concur: Post agrees that Volunteers have struggled to identify counterparts at their sites.
        (As noted in the evaluation report, all education Volunteers are assigned
        supervisors/principals and these relationships are generally functional.) However, Post
        believes that this issue is larger than simply identifying a single counterpart but rather
        involves preparing Volunteers to work collaboratively with their colleagues at school and
        within the wider school community. To address this issue, post has planned a
        comprehensive approach with two prongs: first, to improve the quality of site selection
        and development such that new Volunteers arrive at site with a broad selection of
        potential resource people to choose as counterparts, and second, to strengthen the
        understanding of the role the counterpart and the quality of the relationship through
        additional training.

        Post will update its site development and school assessment materials to broaden the
        sources and types of information upon which site selections are made. New sources and
        types of information may include local non-school leaders, teachers, students, parents,
        county officials, NGOs, and current Volunteers. Overall, post will be assessing the
        readiness of a school’s community to make effective use of a Volunteer and identifying
        potential resource persons beyond the school supervisor/ principal that the Volunteer may
        use to make an informed decision regarding a counterpart. As post matures, detailed site
        history files will be maintained to capture staff and Volunteer recommendations
        regarding good counterparts at particular sites.

        During this year’s PST (which began in June 2011), post conducted a two-day
        supervisors’ workshop where two-year Volunteers were first introduced to their school’s

Final Program Evaluation Report: Peace Corps/Liberia                                             56
APPENDIX C


        principal. During the workshop, clear expectations were set for all participants on
        successful counterpart development. This practice will be continued and refined in
        successive PSTs beginning June of 2012.

        Post has also received USAID approval to fund (through the SPA program) the
        participation of counterpart teachers, school administrators, and community leaders in all
        of post’s in-service training activities for FY12.

        Documents to be Submitted

                USAID approval for the use of SPA funds for counterpart participation in in-
                service training activities
                Training materials used during supervisors’ workshop
                Site Development and Assessment Criteria
                Project Plan for Secondary Education

        OIG Analysis: We acknowledge the agency’s efforts to address this recommendation
        and await the USAID approval for the use of SPA funds for counterpart participation in
        in-service training activities; training materials used during supervisors’ workshops; site
        development and assessment criteria; and the project plan for secondary education. The
        agency’s response states that counterpart development will be one of the PCVL’s
        responsibilities; accordingly, please also submit the PCVL Program Handbook.


4: That the training manager review pre- and in-service training programs to ensure that
they adequately address and prepare Volunteers to identify and carry out secondary
activities.

        Concur: As part of the overall restructuring of the Peace Corps Liberia training program,
        Post will include for the first time a Project Design and Management (PDM) workshop in
        its Calendar of Training Events (COTE) for in-service training and learning objectives
        aimed at increased Volunteer effectiveness in secondary project development.

        Additionally, Peace Corps Liberia is launching a PCVL program. Post’s PCVL program
        will target ongoing peer support for two-year Volunteers in successful community
        integration, project design and management, counterpart development, needs assessment,
        primary assignment effectiveness and secondary project development.

        Documents to be Submitted

                PCVL Program Handbook
                Training Design and Evaluation (TDE) & Calendar of Training Events (COTE)

        OIG Analysis: We acknowledge the agency’s efforts to address this recommendation
        and await the PCVL Program Handbook, Training Design and Evaluation (TDE)
        documentation, and Calendar of Training Events (COTE). Please also submit a copy of

Final Program Evaluation Report: Peace Corps/Liberia                                              57
APPENDIX C


        the updated learning objectives related to Volunteer effectiveness in secondary project
        development.


8: That the associate director for Global Operations work with the post, Africa region, and
Peace Corps Response to document lessons learned from the post’s opening and
incorporate them into existing new country entry processes and policies, as appropriate.

        Concur: The Africa Region initially assessed lessons learned through an assessment team
        (consisting of the acting CHOPS, RSA, and PCSSO) sent to Liberia in April 2010. The
        goal of the assessment was to broadly review post’s operations and support needs. As
        with the OIG program evaluation report, many of the challenges it identified could be
        directly traced to the start-up and initial support and handling of post operations. The
        team produced seven recommendations for future New Country Entries. These
        recommendations were then shared and discussed with Peace Corps Response in July
        2011 to arrive at a more comprehensive understanding of how to improve the NCE
        process and challenges to be avoided in the future. The final recommendations have been
        reviewed by the Office of Global Operations. Lessons learned from Liberia and other
        recent NCE will be incorporated into existing new country entry processes and policies,
        as appropriate.

        Documents Submitted

                Memo to the Office of Global Operations, dated: 11 August 2011 Re: Lessons
                Learned from the Liberia NCE Process

        OIG Analysis: We appreciate the efforts of the agency to document the lessons learned
        from the opening of the Liberia post. Please submit updated new country entry
        guidelines, processes, and/or policies that reflect these lessons learned.


16: That the country director require appropriate staff members to review the accuracy
and completeness of site locator forms.

        Concur: The country director has reviewed the site locator forms for the eleven members
        of LR-1 and found ten of the eleven to be complete and accurate, including contact
        information for counterparts, supervisors and neighbors; police phone numbers; satellite
        phone numbers (if applicable); site directions and map; a plan for reaching the
        consolidation point; and radio stations accessible at the site. One member of LR-1 who
        has recently changed sites has been requested to submit a new site locator form for their
        new site. All members of LR-2 and Response 10 will be required to complete their site
        locator forms within 30 days of site arrival, i.e. before September 24th.

        The country director and APCD/programming and training will review site visit
        procedure with all programming, security and medical staff to ensure that these visits
        include a review of information contained on the site locator form. In addition, the

Final Program Evaluation Report: Peace Corps/Liberia                                              58
APPENDIX C


        country director has utilized the materials provided by the Office of Safety and Security
        to reviewed the orientation materials with the SSC and will continue with the review and
        implementation of suggested standard operating procedures.

        Documents to be Submitted

                Scanned sample site locator forms from LR-1

        OIG Analysis: We acknowledge the agency’s efforts to address this recommendation
        and await the sample site locator forms from LR-1. Please also submit updated site visit
        procedure guidance for staff that reflects their responsibilities for reviewing site locator
        forms.




Final Program Evaluation Report: Peace Corps/Liberia                                               59
APPENDIX D


PROGRAM EVALUATION COMPLETION AND OIG CONTACT
    PROGRAM EVALUATION                This program evaluation was conducted under the
    COMPLETION                        direction of Jim O’Keefe, Assistant Inspector General for
                                      Evaluations, and by Senior Evaluator Heather Robinson.
                                      Additional contributions were made by Reuben Marshall
                                      and Lisa Chesnel.




                                      Jim O’Keefe
                                      Assistant Inspector General for Evaluations

    OIG CONTACT                       Following issuance of the final report, a stakeholder
                                      satisfaction survey will be distributed. If you wish to
                                      comment on the quality or usefulness of this report to help
                                      us improve our products, please e-mail Jim O’Keefe,
                                      Assistant Inspector General for Evaluations and
                                      Inspections, at jokeefe@peacecorps.gov, or call (202)
                                      692-2904.




Final Program Evaluation Report: Peace Corps/Liberia                                                60
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900




All information and complaints will be treated confidentially unless OIG determines,
        during the course of the investigation, that disclosure is unavoidable.
